IN THE SUPREME COURT OF THE UNITED STATES

No. 20-796
CITY OF NEW YORK, PETITIONER
v.

UNITED STATES DEPARTMENT OF JUSTICE

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

JOINT STIPULATION TO DISMISS

Pursuant to Rule 46.1 of the Rules of this Court, all parties
respectfully stipulate that this case be dismissed. All fees due

to the Clerk have been paid, and each party will bear its own costs.
Respectfully submitted.

‘Cut AP

 
 

RICHARD DEARING
Office of the Corporation Counsel of
the City of New York
1 Street
New York, NY 10007
rdearing@law.nyc.gov

(212) 356-2500

 

 

 

Counsel for Petitioner
ELIZABETH B. PRELOGAR

Acting Solicitor General
United States Department of Justice

Washington, D.C. 20530-0001

SupremeCtBriefs@usdoj.gov
(202) 514-2217

Counsel for Respondents

MARCH 4, 2021
